                                      March 30, 1999



MEMORANDUM

SUBJECT:      EPA Controls Over RCRA Permit Renewals
              Report No. E1DSF9-11-0002-9100115

FROM:         Michael Simmons /s/
              Deputy Assistant Inspector General
               for Internal Audits

TO:           Timothy Fields, Jr.
              Acting Assistant Administrator for
               Solid Waste and Emergency Response

       Earlier this fiscal year, the Office of Inspector General (OIG) completed a survey
of EPA controls over Resource Conservation and Recovery Act (RCRA) permit
renewals in EPA Headquarters, Region 3, and two states. Office of Solid Waste
(OSW) officials agreed that we had identified national issues that need to be
addressed. They were willing to work with us to design solutions now, so no further
audit work was necessary. This report describes our findings and the
recommendations developed with the input of OSW officials.

       We recognize that the Agency is committed to a goal of issuing initial permits to
90% of the facilities in its baseline by the year 2005 and that until that goal is achieved,
issuing original permits will generally receive greater emphasis than renewals. This
report is intended to highlight an area of growing importance and identify actions to
assist EPA in preparing for its permit renewal efforts as all permits will need to be
renewed on a regular basis as long as facilities remain in operation. Those actions
include clearly defining EPA’s oversight responsibilities, and obtaining current and
complete data to monitor permit renewal operations. Without these actions, the



                                                       Report No. E1DSF9-11-0002-9100115
Agency will not be able to determine whether states are properly renewing facility
permits.

ACTION REQUIRED

       Please provide my office with a written response to this report within 90 days of
the date of this memorandum, in accordance with EPA Order 2750. For corrective
actions planned but not yet implemented by your response date, include specific
milestones to assist us in deciding whether to close this report.

BACKGROUND

       EPA is responsible for providing oversight and annual grants to authorized state
RCRA programs. Those states implement RCRA hazardous waste regulations.
States and EPA regions negotiate the work that must be accomplished with grant
funds, such as issuing and renewing permits.

        Permits are the essential instruments for assuring compliance with
environmental laws. They translate the legal requirements into specific provisions
tailored to the facilities’ individual operations. RCRA permits provide the owners and
operators of facilities that treat, store, or dispose of hazardous waste with the legal
authority to do so and help ensure that waste is handled in a manner that is protective
of human health and the environment. According to statute, RCRA permits shall have a
fixed term, not beyond ten years. A state may establish its permit term as short as
three years. Permits must be renewed as long as a facility remains operational. The
requirements for renewing a permit are established in the regulations.

         At the beginning of fiscal year 1997, data indicated that nearly 80 percent of the
almost 1900 facilities in the Agency’s approximated universe had received at least their
first permit. However, revised data an OSW official provided on March 19, 1999,
indicated that approximately 65% of a smaller universe of facilities is fully permitted.
That means more initial permits remain to be issued than expected. Thus, until the
goal of permitting 90 percent of the facilities in the universe by 2005 is met, issuing
initial permits will generally take precedence over renewals. OSW officials agree that
much of the Agency’s future workload will be permit renewals. By reviewing renewal
operations today, the Agency will be in a better position to meet the challenges of
tomorrow.

PURPOSE, SCOPE AND METHODOLOGY

     We met with OSW officials to obtain their input as to what areas of inquiry would
be most helpful to them in managing the permitting portion of their responsibilities.


                                                      Report No. E1DSF9-11-0002-9100115
                                             2
Their interests primarily related to permit renewal and streamlining. While we provided
the officials with summary information regarding their other interests, we focused our
attention on evaluating the adequacy of EPA’s controls over permit renewals: the
policies, procedures, and practices in place.

       We conducted our work in EPA Headquarters, Region 3, Pennsylvania, and
West Virginia from June to November 1998, and assessed national data on selected
permitting events. We collected background information on permitting, met with
Agency and state officials, interviewed representatives of the regulated community, and
contacted environmental interest groups. We reviewed previously issued permitting
studies and their recommendations. This assignment was conducted in accordance
with the 1994 Government Auditing Standards issued by the Comptroller General of the
United States.

       While the OIG has issued several reports on other aspects of the RCRA
program and on other types of environmental permitting, we have issued no other
reports on this subject.

FINDINGS

       With its emphasis on issuing original permits, EPA does not yet have controls in
place to effectively manage permit renewals. With neither clear oversight
responsibilities, nor complete and accurate information, the Agency is not now in a
position to monitor performance, identify problems or make improvements, nor will it be
when the workload shifts. EPA officials were not aware of a situation in Pennsylvania
where permits had been improperly renewed, resulting in exceeding the statutory term
limit. When permits are not renewed in a timely manner, facilities may not be operating
in accordance with the most recent environmental requirements and standards. As the
permitting workload shifts from issuing initial permits to renewing existing permits, the
Agency needs to develop the necessary controls to oversee this activity.

EPA’s Oversight Responsibilities Have Not Been Clearly Defined

       The Agency, in recent years, has been focusing more on developing
partnerships with the Regions and states, and less on its oversight functions. The
1998/1999 RCRA Implementation Plan (RIP), the national program guidance,
established guiding principles and general permitting priorities, but did not
communicate specific expectations for Headquarters or the regions regarding basic
permitting program maintenance. No guidance has described how regions will monitor
state permitting operations, nor how EPA Headquarters will oversee regional
performance. The EPA and state officials, as well as the industry representatives we
met with, all agreed some clarification of roles and responsibilities would be helpful.


                                                     Report No. E1DSF9-11-0002-9100115
                                            3
This is particularly true in the area of permit renewals which have not been given much
emphasis with little having been done to plan for adequate oversight.

        The Agency has not collected baseline data, nor established any standards/
guidelines for how long an original or renewed permit should take to issue. Without
this data, EPA cannot identify states having overall permitting problems, nor can it
identify states doing well with their permitting in order to foster best practices. This is
an essential component of effective oversight.

EPA Lacks Complete and Accurate Permitting Data

       Grant provisions document agreements between the Region and authorized
states for managing the RCRA program. All provisions of the two grants we reviewed
as part of this survey, however, were not being adhered to by the states, nor enforced
by Region 3. Both grants contained provisions requiring the states to supply RCRIS
data. The Pennsylvania and West Virginia grants specifically requested data on all
permitting events (emphasis added.) Permitting events are the various dates and
decisions that may occur throughout the term of a permit. In the RCRIS data element
dictionary, 19 events related to operating permits were identified as “core,” or
necessary for oversight of the RCRA program. Neither West Virginia nor Pennsylvania
provided data on all “core” permitting events, much less all permitting actions that
occurred, as agreed to in the grants.

       RCRIS does not contain complete, accurate data on the two states.
Pennsylvania officials used their judgement in deciding what data to submit to the
Region 3 contractors who enter the State’s information. We were told that the
contractor has not always entered all the data that was submitted, or made changes
requested by the State. West Virginia chose to enter seven events, three of which are
“core.” State employees enter this State’s data, but they also told us that they have
had problems with the Region 3 contractor incorrectly changing data that had been
entered properly.

        To gain an understanding beyond Region 3, we reviewed national data on
selected “core” events. The “permit expires” date was one of the events we reviewed
as critical for managing renewals. The Agency estimates that over 1400 permits have
been issued to facilities across the country, yet only 86 expiration dates were in RCRIS.
At least five of those 86 dates were inaccurate, predating the RCRA program. For
three of EPA’s ten regions, not a single expiration date for any permit issued was
entered in the system. Data for the other selected events, such as the date the permit
application was received, was not complete in the system, either. Neither
Headquarters nor Region 3 officials have asked states to provide the missing data, nor
during our fieldwork did Headquarters have information on the length of state permit


                                                        Report No. E1DSF9-11-0002-9100115
                                              4
terms which would allow a calculation of expiration dates, as long as the effective date
of the permit was available.

        In 1995, the U.S. General Accounting Office concluded that RCRIS was difficult
to use and that it contained unreliable data. Since December 1997, EPA has
recognized RCRIS as an Agency-level weakness. While there are plans to address the
weakness and ultimately replace this system, the Agency needs to obtain key data to
effectively manage permit renewals. We are aware that some Regions and states have
created their own alternative information systems to maintain programmatic data
because of problems with RCRIS. Region 3 had not. In the 1998/1999 RIP, EPA
committed to relying upon RCRIS to manage the program. Milestones for the
replacement-system portion of correcting the weakness have begun to slip. The
replacement-system plans have met with delays and resource difficulties.

         At the time of our fieldwork, neither Headquarters nor Region 3 had information
on the status of the national or regional permitting universe. EPA officials did not have
basic programmatic data such as the actual number of facilities in the permitting
universe, the number of facilities with original permits, the number needing renewal,
etc. Headquarters officials now believe they have better information on the numbers of
facilities in the universe and those with original permits. At the state level, such
information was readily available in West Virginia’s central office, although in
Pennsylvania, it had to be gathered from the State’s six regional offices.

        Headquarters officials were under the impression that Regional officials had the
information on their permitting universe. This expectation was not communicated to
Region 3 and the Region did not have the data. Along the same lines, Region 3
officials suggested we contact the states to get such information, not knowing whether
or not the states had the data collected. West Virginia did, Pennsylvania did not.
Pennsylvania officials, for instance, did not know how many, if any, renewals their
regions had processed.

         EPA does not have the information to identify facilities with expired permits or
those with permits that have been improperly renewed, since it is not collecting
expiration dates or dates of renewal application received. Permit terms may not be
extended by modification, according to the regulations. Properly applying for renewal,
on the other hand, does allow the facility to continue operating under the existing
permit terms until a renewal decision is made. One state official told us that his office
had not renewed any permits; however, it had extended the terms of a few, when the
facilities requested permit modifications. According to the official, the State regional
counsel’s office curtailed that improper practice. EPA, however, was not aware of that
situation, as it would have been had the Agency collected the data necessary for
program oversight.


                                                      Report No. E1DSF9-11-0002-9100115
                                            5
EPA Is Not Positioned To Monitor Performance

         Without information such as the date permit application was received and the
date the permit expires in its system, the Agency can not identify the universe of
facilities with permits that have been, need to be, or soon will need to be renewed,
which would be the first step in performance monitoring. EPA is also not collecting
current performance data by not ensuring that the aforementioned information is
accurately entered.

        RCRA permits shall have a fixed term, not beyond ten years, in accordance with
the law, but permits at times are given terms longer than 10 years. Regulations specify
that in order for a permit to continue, the facility must submit a complete renewal
application at least 180 days prior to the expiration of the original permit. From what
limited data we could obtain, it appears that states are not reissuing permits within the
180-day window. Renewing the permits within that time would be desirable in light of
the statutory requirement for a fixed term. Some permits are continued according to
regulation; however, others are not, as described in the previous section of this report.
The Agency is not tracking this issue.

       The information we gathered indicates that permitting time frames vary widely.
In West Virginia, the three renewals that had been completed took 450 to1090 days to
process. The two Pennsylvania renewals were in process approximately 714 to 812
days. During our fieldwork, the renewals in progress in both states had been on-going
from 115 to 975 days. We also reviewed information regarding permit processing time
that 16 states provided in 1996 to a team the Administrator charged with environmental
permit reform. The data which primarily represented performance standards, not
necessarily actual performance, covered a range of 150 days plus public notice (45
days plus hearing, if necessary) to 760 days. The information had not been analyzed
by the team or any EPA representative.

       When a permit is continued according to regulation, the facility operates under
the conditions specified in its existing permit until the renewal decision is made. Some
changes in operating requirements must be implemented as they are issued; e.g., Land
Disposal Restrictions under the Hazardous and Solid Waste Amendments. Other
regulatory changes that occurred during the permit term may not have been
incorporated into the existing permit, allowing facilities to postpone compliance with
newer and often stricter standards during the renewal process, which may take years.
However, as noted above, the Agency is not in a position to know whether the
requirements for renewal are being met, or whether they are appropriate.




                                                     Report No. E1DSF9-11-0002-9100115
                                            6
CONCLUSIONS

       While EPA has placed, and will continue to place, a great deal of emphasis on
issuing original RCRA permits to facilities treating, storing, or disposing of hazardous
waste, the Agency has not yet established the necessary controls for guiding
operations now that more than half of the original permits are issued and the first round
of renewals are coming due. EPA has no plan for addressing renewals. The Agency
needs to establish basic controls and gather basic programmatic information to begin
monitoring permit renewal activities.




AGENCY COMMENTS AND OIG RESPONSE

       In lieu of formal written comments on our draft report, OSW officials chose to
provide oral comments. The officials provided updated information, and requested
various changes throughout the report. They agreed with the overall message of the
report and the intent of the recommendations. We revised the draft as appropriate.

RECOMMENDATIONS

     We recommend that the Acting Assistant Administrator for Solid Waste and
Emergency Response direct the Acting Director, Office of Solid Waste to:

1.) Issue a guidance memorandum for management of RCRA permit renewals to EPA
    regions and the states that addresses:
    • the value of Federal oversight,
    • the oversight responsibilities of Headquarters and regions, and
    • the growing importance of permit renewals.

2.) Ensure that EPA regions and/or the states:
    a. enter key permitting data in RCRIS which include at a minimum:
      • the date the permit application (part B) was received,
      • the date the permit was issued, and
      • the date the permit expires; and
    b. use the data to ensure that facilities are not allowed to operate under permits
        that have expired or been improperly renewed.




                                                      Report No. E1DSF9-11-0002-9100115
                                            7
                                Report Distribution

Internal
Headquarters
       Acting Director, Office of Solid Waste (5301W)
       Acting Director, Permits and State Program Division (5303W)
       Audit Liaison, Office of Solid Waste and Emergency Response (5103)
       Audit Liaison, Office of Solid Waste (5305W)

      Inspector General (2410)
      Deputy Assistant Inspector General for Internal Audits (2421)
      Audit Liaison, Office of Audit (2421)

      Associate Administrator for Congressional and Intergovernmental Relations
      (1301)
      Associate Administrator for Communications, Education, and Media Relations
      (1701)

Region 3
      Associate Director, Waste and Chemicals Management Division
      Audit Liaison

External
West Virginia
      Assistant Chief, Office of Waste Management, Division of Environmental
      Protection

Pennsylvania
     Chief, Hazardous Waste Permits Section, Division of Hazardous Waste
     Management, Department of Environmental Protection




                                                   Report No. E1DSF9-11-0002-9100115
                                          8
